IN THE
SUPREME COURT OF THE UNITED STATES
No.
JORGE RAMON NEWBALL May,

Petitioner
Vv.

UNITED STATES OF AMERICA,
Respondent
CERTIFICATE OF SERVICE

I hereby certify that on this 24th day of May 2021, as required by Supreme
Court Rule 29, I have served the enclosed the PETITION FOR A WRIT OF
CERTIORARI and MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS on
each party to the above proceeding or that party’s counsel by depositing an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid.

The names and addresses of those served are as follows:

Solicitor General of the United States

Room 5616, Department of Justice

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
Respectfully Submitted on this 24th day of May 2021,

BJORN E. BRUNVAND
Brunvand Wise, P.A.

615 Turner Street

Clearwater, FL 33756
Telephone: (727) 446-7505
Email: bjorn@acquitter.com
Florida Bar No. 0831077
Counsel of Record for Petitioner

Newball May v. United States
Certificate of Service
Page 2 of 2
